                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           Dallas Field Office, Office of Audits
                                                                                           3900 Karina Street, Room 224
                                                                                           Denton, Texas 76208




                                                 July 11, 2005


MEMORANDUM FOR:                         Gary Jones
                                        Acting Regional Director, FEMA Region VI



FROM:                                   Tonda L. Hadley
                                        Field Office Director

SUBJECT:                                Kiamichi Electric Cooperative, Inc.
                                        Wilburton, Oklahoma
                                        FEMA Disaster Number DR-1355-OK
                                        Public Assistance Identification Number 000-006AE-00
                                        Audit Report Number DD-08-05

The Office of Inspector General (OIG) audited public assistance funds awarded to the Kiamichi
Electric Cooperative, Inc. (KEC), located in Wilburton, Oklahoma. The objective of the audit was to
determine whether KEC accounted for and expended Federal Emergency Management Agency
(FEMA) funds according to federal regulations and FEMA guidelines.

KEC received an award of $9.65 million from the State of Oklahoma, Oklahoma Department of
Civil Emergency Management (ODCEM), a FEMA grantee, for damages caused by an ice storm on
December 25, 2000. The award provided 100 percent FEMA funding for six large projects and 75
percent FEMA funding for one large project and five small projects.1 The audit covered the period
December 25, 2000, to September 6, 2001, during which KEC claimed $9.65 million and ODCEM
disbursed $8.34 million in direct program costs.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included review of 100
percent of KEC’s claimed expenditures, assessment of inventory controls, analysis of weather events
and power outages occurring during the damage recovery period, and other auditing procedures
considered necessary to accomplish the audit objective.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $50,600.
                                      RESULTS OF AUDIT

KEC did not account for and expend FEMA funds according to federal regulations and FEMA
guidelines. Specifically, KEC did not follow federal procurement standards in awarding $8,381,786
of contract work. As a result, fair and open competition did not occur and contract costs were
excessive. Further, we identified questioned costs totaling $6,235,687 ($5,657,548 FEMA share), or
65 percent of the $9,649,393 claimed as shown in Exhibit A and the following table:

   A—Improper contracting after the emergency period                 $4,883,714
        (Less costs also questioned in Findings B through H)         -1,523,289
        Net amount questioned in Finding A                                           $3,360,425
   B—Unsupported costs                                                                1,247,200
   C—Unreasonable contract costs                                                        649,168
   D—Duplicate costs                                                                    385,812
   E—FEMA overpayment                                                                   251,479
   F—Miscellaneous ineligible contract costs                                            197,259
   G—Overpayment on misclassified costs                                                 105,941
   H—Idle/standby contract costs                                                         38,403
        Total questioned costs                                                       $6,235,687

Finding A: Improper Contracting During and After the Emergency Period

KEC did not comply with federal procurement standards or FEMA guidelines in awarding
$8,381,786 for contracted utility and debris removal work. As a result, fair and open competition did
not occur and contract costs were excessive. We questioned $4,883,714 of contract costs claimed for
work performed after January 15, 2001, when power was fully restored to all KEC customers. We
questioned these costs because (1) after January 15, 2001, exigent circumstances no longer existed to
justify KEC’s non-compliance with federal procurement standards and (2) not all of the contract
work performed after January 15, 2001, appeared to be related to the disaster.

As shown in the table above, we questioned $1,523,289 of the $4,883,714 in Findings B through H.
Therefore, if FEMA agrees to disallow the costs questioned in Findings B through H, the net amount
questioned in Finding A will be $3,360,425.

Procurement standards at 44 CFR 13.36:

   •   Require the performance of procurement transactions in a manner providing full and open
       competition except under certain circumstances. (13.36(c))
   •   Allow procurement by noncompetitive proposals only when the award of a contract is
       infeasible under small purchase procedures [$100,000 or less], sealed bids, or competitive
       proposals and certain circumstances apply. One acceptable circumstance is when the public
       exigency or emergency for the requirement will not permit a delay resulting from
       competitive solicitation. (13.36(d)(4)(i))




                                                 2
   •   Require that subgrantees maintain records sufficient to detail the significant history of the
       procurement, including the rationale for the method of procurement, the basis for contractor
       selection, and basis for the contract price. (13.36(b)(9))
   •   Require subgrantees to maintain a contract administration system that ensures contractors
       perform in accordance with the terms, conditions, and specifications of their contracts or
       purchase orders. (13.36 (b)(2))
   •   Require a cost or price analysis in connection with every procurement action, including
       contract modifications. (13.36(f)(1))
   •   Prohibit the use of time-and-material type contracts unless no other contract is suitable and
       provided that the contract include a ceiling price that the contractor exceeds at its own risk.
       (13.36(b)(10))
   •   Require profit to be negotiated as a separate element of the price for each contract in which
       there is no price competition and in all cases where cost analysis is performed. (13.36(f)(2))

The ice storm occurred on December 25, 2000. KEC used its own employees (force account labor),
mutual aid assistance from other power companies, and contractors to restore power to its customers
by January 15, 2001. KEC and its contractors worked at extreme emergency levels until sufficient
right-of-way (ROW) space was cleared to permit full restoration of power. KEC continued to use
these contractors and claimed costs for disaster work through September 5, 2001.

Before the disaster, KEC competitively procured four contractors to perform routine and planned
non-disaster work. Of the four contracts, one was a construction contract, three were ROW contracts,
and all were at fixed unit prices. Each of the four pre-disaster contracts also included hourly labor
and equipment rates for emergency storm work. To perform disaster work, KEC paid these 4
contractors $4,114,801, another 10 contractors $4,008,168, and 38 smaller contractors $242,538. In
total, KEC used 52 contractors during the disaster.

Except for the 4 pre-disaster contracts, KEC procured the remaining 48 contractors at hourly rates
for labor and equipment without competition. KEC did not (1) maintain records sufficient to detail
its rationale for contractor selection, (2) perform a cost or price analysis, (3) justify the use of time-
and-material type contracts, or (4) negotiate profit as a separate element of the price. KEC used
verbal agreements and informal rate sheets rather than written contracts for eight (five large and
three small) of the contractors procured after the disaster. Although some of the contracts had cost
ceilings, KEC did not enforce them and did not document its justification for allowing contract costs
to exceed the ceilings. For example, one of the pre-disaster contractors had a $750,000 ceiling and
total costs billed were over $2 million.

KEC officials were unable to provide evidence of contract monitoring, stating that they did not have
the resources available to monitor contract performance. FEMA’s Public Assistance Debris
Management Guide (FEMA 325, April 1999), p. 28, states that supervision of time-and-material
contracts is “extremely important.” Work inspection reports should be prepared each day. These
reports should clearly state the amount of work accomplished that day in quantitative terms, such as
the number of cubic yards of debris hauled, the type and number of trucks used and the number of
hours worked.” Without such reports, KEC had no documentation to validate labor and equipment
hours billed in contractor invoices. Contract monitoring is essential to ensure that contractors
perform in accordance with the terms, conditions, and specifications of their contracts.


                                                    3
FEMA’s Public Assistance Debris Management Guide (FEMA 325, April 1999), p. 28, states:

   •   Time-and-Material contracts should be limited to a maximum of 70 hours of actual
       emergency debris clearance work and should be used only after all available local, tribal and
       State government equipment has been committed.
   •   Time-and-Material contracts may be extended for a short period when absolutely necessary,
       for example, until appropriate Unit Price contracts have been prepared and executed.

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999), p. 40, states:

   •   FEMA provides reimbursement for three types of contracts: lump sum, unit price, and cost-
       plus-fixed-fee contracts.
   •   Time-and-material contracts should be avoided, but may be allowed for work that is
       necessary immediately after the disaster has occurred when a clear scope of work cannot be
       developed.
   •   Applicants must carefully monitor and document contractor expenses.

We considered the 3-week period after the ice storm occurred on December 25, 2000, to be the
“emergency period” because power was not restored to all of KEC’s customers until January 15,
2001. We concluded that the lack of power constituted exigent circumstances that warranted the use
of non-competitive, time-and-material type contracts because KEC likely did not have time to
develop a clear scope of work until all power was restored.

Under 44 CFR 13.43(a)(2), failure to comply with applicable statutes or regulations can result in the
disallowance of all or part of the costs of the activity or action not in compliance. Although KEC did
not follow other procurement standards during the emergency period (e.g., negotiate profit
separately, perform a cost analysis, or monitor contract performance), we did not question contract
costs incurred during the 3-week emergency period on the basis of improper procurement
procedures. However, we did question the $4,883,714 of contractor costs incurred after the
emergency period because, after KEC restored power to its customers, it should have solicited
competitive bids for the remaining disaster work under lump sum, unit price, or cost-plus-fixed-fee
contracts. Instead, KEC continued to use the time-and-material contracts, some of which were non-
competitive, until September 5, 2001, over 7 months after the power was fully restored on
January 15, 2001.

We also questioned these costs because we found substantial evidence that not all of the work
performed after January 15, 2001, was related to the disaster. To be eligible for financial assistance,
an item of work must be required as the result of the major disaster event (44 CFR 206.223(a)(1)).
KEC was unable to provide any documentation to define the scope of work that remained after
power was restored. In reviewing contract costs incurred after January 15, 2001, we noticed that
many of the ROW invoices were for spring and summer brush removal, rather than ice storm debris
removal. We also noticed unexpected patterns in contractors’ billings. We expected to see a steady
decline of contract work and billings after the power was restored. Instead, we saw spikes.

We determined that these spikes, or surges, in contract costs coincided with spring and summer
“storm outages” recorded in KEC’s call log. We tracked power outages and the costs billed by
KEC’s five largest contractors for the period January 16 through September 5, 2001. These five
contractors billed about 70 percent of the $8,381,786 in total contract costs. As shown in Exhibit B,
                                                   4
major construction work and ROW work initially declined after the power was restored but in
February inexplicably began to rise and fall, paralleling spring and summer storm activity. These
patterns indicate that some, if not all, of the work that occurred after January 15, 2001, resulted from
storms other than the ice storm that was declared a major disaster.

Therefore, the $4,883,714 of contract costs claimed for work performed after January 15, 2001, was
ineligible because exigent circumstances no longer existed to justify KEC’s non-compliance with
federal procurement standards and because not all of the work appeared to relate to the disaster.

Officials from KEC indicated that State officials did not instruct them on proper federal procurement
standards in a timely manner. According to 44 CFR 13.37(a)(2), states are responsible for ensuring
“that subgrantees are aware of requirements imposed upon them by Federal statute and regulation”.
Further, 44 CFR 13.40 requires states to monitor subgrant supported activities to assure compliance
with applicable federal requirements. KEC’s lack of compliance with federal procurement standards
clearly demonstrates that State officials did not adequately monitor KEC’s subgrant activities.

       Recommendations:

The OIG recommended that the Regional Director, FEMA Region VI:

   1. Disallow $4,883,714 of ineligible contracting costs.

   2. Require the Oklahoma Department of Civil Emergency Management to develop, document,
      and implement procedures for future disasters to: (a) provide subgrantees timely guidance on
      federal regulations, standards, and guidelines related to procurement and (b) monitor
      subgrantees to ensure compliance with those federal regulations, standards, and guidelines.

Finding B: Unsupported Costs

We identified $1,247,200 in unsupported costs for contract labor ($660,162), materials ($293,436),
contract equipment ($282,490), math errors ($6,252), and force account labor ($4,860). According to
44 CFR 13.20(b)(2), a subgrantee must maintain records that adequately identify the source and
application of funds. Additionally, 44 CFR 13.20(b)(6) states, “Accounting records must be
supported by such source documentation as cancelled checks, paid bills, payrolls, time and
attendance records, contract and subgrant award documents, etc.” As discussed below, KEC was
unable to provide source documentation to support these costs; therefore, we questioned $1,247,200
as unsupported. (Note: $327,615 of the $1,247,200 was also questioned in Finding A.)

   •   $660,162 for contract labor. KEC did not obtain and retain adequate supporting
       documentation for $660,162 of contractor labor and subsistence (meals and lodging)
       expenses. Both KEC and the OIG contacted the contractors in an attempt to obtain the
       missing records. Two major contractors failed to provide any records related to the work
       performed. Others provided incomplete records. Collectively, the lack of documentation left
       $660,162 of the KEC claim for labor and subsistence unsupported.

   •   $293,436 for materials. KEC’s claim for materials contained (1) an “estimated work order”
       for $198,090 that was not supported and (2) an inventory “adjustment” of $95,346 to cover
       unsupported shortages in the KEC physical inventory.
                                                   5
   •   $282,490 for contract equipment. Without supporting documentation for the contract labor
       charges discussed above, KEC was unable to support $282,490 in related contract equipment
       charges.

   •   $6,252 in math errors. KEC math errors on Projects 613, 2619, and 3583 created a $6,252
       overcharge to the claim.

   •   $4,860 for force account labor. KEC claimed $4,860 in excessive fringe benefit rates on its
       force account labor costs. KEC claimed 2 percent for Medicare instead of 1.45 percent and 7
       percent for Social Security instead of 6.2 percent.

       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   3. Disallow $1,247,200 of unsupported costs ($327,615 of which was also questioned in
      Finding A).

Finding C: Unreasonable Contract Costs

We questioned $649,168 in unreasonable contract costs claimed for equipment ($141,243), labor
($478,405), and inflated contractor and sub-contractor rates ($29,520). The Office of Management
and Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian Tribal Government,
requires that allowable costs under federal awards be reasonable (Attachment A, paragraph C.1.a.).
The Circular also defines a reasonable cost to be one that, in nature and amount, does not exceed that
which would be incurred by a prudent person under the circumstances prevailing at the time the
decision was made to incur the cost (Attachment A, paragraph C.2.). Because KEC had renewed its
regular construction and ROW contracts the same month the ice storm occurred, we used the hourly
labor and equipment “storm rates” identified in the contracts as our standard for “reasonable” rates
during the disaster. However, KEC acted imprudently in allowing contractors to charge rates above
established contract rates and/or reasonable storm rates. (Note: Of the $649,168 questioned,
$513,275 was also questioned in Finding A.)

       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   4. Disallow $649,168 of unreasonable contract costs ($513,275 of which was also questioned in
      Finding A).

Finding D: Duplicate Costs

We questioned $385,812 of duplicate costs for contract labor ($205,422), contract equipment
($178,978), materials ($1,044), and force account labor ($368). In compiling its claim, KEC
erroneously entered various check payments under more than one project. KEC agreed that it had
claimed $385,812 twice for the same costs. (Note: Of the $385,812 questioned, $214,694 was also
questioned in Finding A.)
                                                  6
       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   5. Disallow $385,812 of duplicate costs ($214,694 of which was also questioned in Finding A).

Finding E: FEMA Overpayment

We identified a FEMA overpayment totaling $251,479, which represented 25 percent of $1,005,917
erroneously funded at 100 percent rather than the 75 percent authorized FEMA cost share. ODCEM
granted KEC a 60-day extension, beginning July 6, 2001, for disaster debris removal (Category A)
under Project 3583. During the initial 6-month period after the disaster was declared (December 25,
2000, to July 6, 2001), FEMA funded debris removal at 100 percent. However, the terms of the 60-
day extension specified that debris removal after July 6, 2001, would be funded at 75 percent.
FEMA erroneously funded $1,005,917 claimed for debris removal after July 6, 2001, at 100 percent,
rather than the 75 percent authorized. Therefore, we questioned $251,479 received by KEC as an
overpayment ($1,005,917 x 25 percent). (Note: All of the $251,479 questioned was also questioned
in Finding A.)

       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   6. Recover the $251,479 FEMA overpayment (all of which was questioned in Finding A).

Finding F: Miscellaneous Ineligible Contract Costs

We questioned $197,259 of miscellaneous ineligible contract costs as discussed below (Note:
$138,809 of these costs was also questioned in Finding A):

   •   $120,922 for work not related to the ice storm. We identified $108,491 of ROW maintenance
       costs for defoliant spraying, brush removal, and mowing; and $12,431 of new utility
       construction work. According to 44 CFR 206.223(a)(1), to be eligible for financial
       assistance, an item of work must be required as the result of the major disaster event. Normal
       ROW maintenance and new line construction do not qualify as disaster-related costs.

   •   $29,325 for ineligible fuel and equipment maintenance. KEC’s contractors charged $29,325
       for fuel and maintenance costs that should have been included in their equipment rates. The
       FEMA Schedule of Equipment Rates (January 2001) states that equipment rates cover all
       costs of ownership and operating equipment, including depreciation, maintenance, field
       repairs, fuel, lubricants, tires, OSHA equipment, and other costs incident to operation.
       Although this rule applies specifically to force account equipment, contractors should be held
       to the same standard. Further, FEMA's Public Assistance Debris Management Guide (FEMA
       325, April 1999), supports our position by stating that time-and-material contracts should
       clearly state that the “price for the equipment applies only when the equipment is operating
       and the hourly rate includes the operator, fuel, maintenance, and repair.” Although this
       guidance was written for debris contractors, it should apply to other types of work.
                                                 7
   •   $39,146 for ineligible utility contractor travel. KEC claimed travel costs for its utility
       contractor’s crews and equipment. KEC’s pre-disaster contract with this contractor did not
       authorize travel expenses. To be eligible for FEMA reimbursement, the costs must be the
       legal responsibility of the eligible applicant (44 CFR 206.223(a)(3)). KEC had an enforceable
       contract at the time of the disaster; therefore, KEC had no legal responsibility to pay
       additional costs for the contractor’s performance.

   •   $7,866 for contractor liability claims. KEC included four contractor liability claims in a small
       Project Worksheet. Two of the liability claims involved work performed by KEC contractors
       with pre-disaster contracts that clearly required liability insurance coverage. KEC’s insurance
       carrier (the St. Paul Companies) rejected both claims stating that KEC was not liable for the
       damages because the contractors had performed the work. Both KEC’s insurance and the
       contractor’s insurance provider denied a third claim because the contractor was not
       responsible for the damage. The damage occurred as a result of conditions in the owner’s
       property. The fourth claim appeared to be an insured liability claim against KEC’s own work.
       However, KEC could not provide any evidence that it submitted the claim to its insurance
       carrier for payment. Without an insurance decision on the fourth claim, we could not
       determine the eligibility of the cost. As stated above, to be eligible for FEMA
       reimbursement, the costs must be the legal responsibility of the eligible applicant (44 CFR
       206.223(a)(3)). KEC and its contractors had liability insurance in force at the time of the
       damage. KEC’s insurance stated that KEC was not liable for three of the four claims; and
       KEC failed to submit the fourth claim. Therefore, these claims were not eligible for FEMA
       reimbursement.

       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   7. Disallow $197,259 of ineligible contract costs ($138,809 of which was also questioned in
      Finding A).

Finding G: Overpayment on Misclassified Costs

KEC misclassified $423,765 of Category F (permanent utility work) costs as Category A (debris
removal). The award provided 75 percent FEMA funding for Category F projects and, until July 6,
2001, 100 percent FEMA funding for Category A projects. Therefore, FEMA funded $423,765 at
100 percent, rather than the 75 percent authorized for Category F projects. Accordingly, we
questioned 25 percent of the $423,765, or $105,941 as an overpayment. (Note: $73,959 of the
$105,941 questioned was also questioned in Finding A.)

       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   8. Recover the $105,941 FEMA overpayment ($73,959 of which was also questioned in
      Finding A).

                                                  8
Finding H: Idle/Standby Contract Costs

We questioned $38,403 claimed for idle and standby contract costs for equipment ($30,883) and
labor ($7,520). Contractors used “haul trucks” to transport other equipment to and from job sites.
Although the trucks were idle for most of any given day, some contractors billed hourly labor and
equipment rates during idle and standby periods. FEMA's Public Assistance Debris Management
Guide (FEMA 325, April 1999), states that a time-and-material contract should clearly state the
“price for the equipment applies only when the equipment is operating.” Although FEMA wrote this
guidance for debris contractors, it should apply to all types of work. (Note: $3,458 of the $38,403
questioned was also questioned in Finding A.)

       Recommendation:

The OIG recommended that the Regional Director, FEMA Region VI:

   9. Disallow $38,403 of ineligible contract costs for standby and idle equipment ($3,458 of
      which was also questioned in Finding A).


         DISCUSSION WITH MANAGEMENT AND MANAGEMENT RESPONSE

We discussed the results of the audit with FEMA Region VI on November 22, 2004. We provided a
discussion draft of the report to FEMA, ODCEM, and KEC on November 29, 2004, and held a joint
exit conference on January 4, 2005. The draft report was revised to include some comments made
during the exit conference.

Please advise this office by October 11, 2005, of the actions taken or planned to implement our
recommendations. Please include target completion dates for any planned actions.

If you have questions concerning this report, please call me at (940) 891-8900. Major contributors to
this report were Paige Hamrick, Stuart Weibel, Rita Dear, and Jerry Meeker.




                                                  9
                                                                                     EXHIBIT A



                                    Schedule of Projects
                              Kiamichi Electric Cooperative, Inc.
                             FEMA Disaster Number DR-1355-OK


                                  (a)        (b)           (c)                (d)        Total
                              Amount       Amount      Amount in        Net Questioned  Amount
Project                      Questioned Questioned    Findings B-H        Finding A    Questioned
Number Cat.     Amount        Finding A Findings B-H Questioned in A         (a-c)       (b+d)
               Awarded/
               Claimed
  613      A    $ 831,782     $    17,820   $   351,322    $    5,602       $   12,218   $ 363,540
  988      A       105,097         80,266        27,136        12,133           68,133        95,269
 2619      A       695,768        690,799       273,503       271,242          419,557       693,060
 3355      A       709,467        709,467       152,119       152,119          557,348       709,467
 3550      A     1,054,802      1,054,802       198,655       198,655          856,147     1,054,802
 3583      A     1,006,994      1,006,994       507,901       507,901          499,093     1,006,994
 1021      F     5,176,815      1,323,566     1,356,760       375,637          947,929     2,304,689
Subtotal        $9,580,725    $4,883,714    $2,867,396     $1,523,289       $3,360,425   $6,227,821
  614      B    $ 48,684      $         0   $         0    $        0       $        0   $         0
 1237      C         2,080              0             0             0                0             0
 1239      C             0              0             0             0                0             0
 1913      E        10,038              0             0             0                0             0
 3600      F         7,866              0         7,866             0                0         7,866
Subtotal        $ 68,668      $         0   $     7,866    $        0       $        0   $     7,866

TOTAL           $9,649,393    $4,883,714    $2,875,262     $1,523,289       $3,360,425 $6,235,687




                                                10
